TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Review of the Internal Revenue Service’s
                       Purchase Card Violations Report
                        and the Status of Government
                       Charge Card Recommendations



                                        January 24, 2014

                              Reference Number: 2014-10-014




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


REVIEW OF THE INTERNAL REVENUE                       Implementation of the Government Charge Card
SERVICE’S PURCHASE CARD                              Abuse Prevention Act of 2012, dated
VIOLATIONS REPORT AND THE STATUS                     September 6, 2013.
OF GOVERNMENT CHARGE CARD                            TIGTA’s independent review identified one
RECOMMENDATIONS                                      confirmed violation of purchase card fraud
                                                     during the reporting period that resulted in the
                                                     responsible cardholder’s resignation from
Highlights                                           employment with the IRS. In addition, TIGTA
                                                     identified two potential purchase card violations
Final Report issued on January 24, 2014              pending final agency action and one potential
                                                     purchase card violation pending investigation.
Highlights of Reference Number: 2014-10-014          This corresponds with what the IRS conveyed in
to the Internal Revenue Service Deputy               its Purchase Card Violations Report.
Commissioner for Operations Support.
                                                     TIGTA also reviewed the IRS’s Fiscal Year 2013
IMPACT ON TAXPAYERS                                  annual assurance statement and determined
                                                     that it had been updated by the IRS to state that
Federal audits of agency charge card programs        appropriate policies and controls were in place
have found varying degrees of fraud, waste, and      to mitigate the risk of fraud and inappropriate
abuse. On October 5, 2012, the President             Government travel and purchase charge card
signed into law the Government Charge Card           practices.
Abuse Prevention Act of 2012, which reinforced
Administration and congressional efforts to          However, six TIGTA recommendations remain
prevent fraud, waste, and abuse of                   open and are scheduled to be implemented by
Governmentwide charge card programs.                 the IRS in Fiscal Year 2014. Once
                                                     implemented, these recommendations will
WHY TIGTA DID THE AUDIT                              further enhance the IRS’s internal controls for its
                                                     charge card programs. Finally, an additional
This review was initiated because the
                                                     14 prior TIGTA recommendations related to
Government Charge Card Abuse Prevention Act
                                                     purchase or travel cards were implemented and
of 2012 requires each agency with more than
                                                     closed during Fiscal Year 2013.
$10 million in purchase card spending in the
prior fiscal year to submit semiannual reports of    WHAT TIGTA RECOMMENDED
employee purchase card violations and the
disposition of those violations, including           TIGTA made no recommendations in this report.
disciplinary actions taken. Inspectors General
must report to the Director of the Office of
Management and Budget 120 days after the end
of each fiscal year on agency progress in
implementing purchase and travel card audit
recommendations. The overall objective of this
review was to assess the IRS’s implementation
of and compliance with the law’s requirements
for the period April 1 to September 30, 2013.
WHAT TIGTA FOUND
TIGTA found that the IRS properly reported
four instances of identified purchase card
misuse. The IRS prepared the Purchase Card
Violations Report pursuant to the requirements
outlined in the law and in Office of Management
and Budget Memorandum M-13-21,
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               January 24, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Review of the Internal Revenue Service’s
                              Purchase Card Violations Report and the Status of Government Charge
                              Card Recommendations (Audit # 201310031)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Purchase
 Card Violations Report. The overall objective of this review was to assess the IRS’s
 implementation of and compliance with the Government Charge Card Abuse Prevention Act
 of 20121 for the period April 1 to September 30, 2013.
 Copies of this report are also being sent to the IRS managers affected by the report. If you have
 any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for Audit
 (Management Services and Exempt Organizations).




 1
  Pub. L. No. 112-194 (Oct. 2012). On September 6, 2013, the Office of Management and Budget issued
 Memorandum M-13-21 with implementation guidance for the act. On September 9, 2013, the General Services
 Administration issued Smart Bulletin No. 21, which included a summary compliance checklist for agency use and
 sample reporting templates.
                          Review of the Internal Revenue Service’s Purchase Card
                        Violations Report and the Status of Government Charge Card
                                             Recommendations




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Implementation of and Compliance With the Government Charge Card
          Abuse Prevention Act of 2012 Requirements ............................................... Page 5
          Status of the Internal Revenue Service’s Implementation of Treasury
          Inspector General for Tax Administration Audit Recommendations
          Related to Government Charge Cards .......................................................... Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Purchase Card Violations Report ........................................ Page 15
          Appendix V – Open Purchase Card Recommendations as of
          September 30, 2013 ...................................................................................... Page 16
          Appendix VI – Fiscal Year 2013 Closed Purchase Card
          Recommendations ......................................................................................... Page 18
           Review of the Internal Revenue Service’s Purchase Card
         Violations Report and the Status of Government Charge Card
                              Recommendations




                       Abbreviations

ALERTS           Automated Labor and Employee Relations Tracking System
AWSS             Agency-Wide Shared Services
CCS              Credit Card Services
CFO              Chief Financial Officer
FY               Fiscal Year
IRS              Internal Revenue Service
JAMES            Joint Audit Management Enterprise System
OMB              Office of Management and Budget
PARIS            Performance and Results Information System
TIGTA            Treasury Inspector General for Tax Administration
                      Review of the Internal Revenue Service’s Purchase Card
                    Violations Report and the Status of Government Charge Card
                                         Recommendations




                                          Background

Government purchase cards are an affordable and convenient means for making electronic
payments, and the Federal Acquisition Regulation1 designated the purchase card as the preferred
method for making purchases up to the micro-purchase limit.2 In order to accommodate
purchases from vendors who do not accept credit cards, the purchase card program also has a
convenience check component. While the use of purchase cards has been credited with reducing
administrative costs and simplifying the acquisition process, audits of Federal agency purchase
card programs have found varying degrees of fraud, waste, and abuse. One of the most common
risk factors identified is a weak internal control environment. In a prior audit of purchase cards,3
we found that while some controls are working as intended, the Internal Revenue Service’s (IRS)
purchase card program lacks consistent oversight to identify and address inappropriate use.
On October 5, 2012, the President signed into law the Government Charge Card Abuse
Prevention Act of 2012 (Charge Card Act),4 which reinforced Administration and congressional
efforts to prevent fraud, waste, and abuse of Governmentwide charge card programs. In
conjunction with current guidance,5 the Charge Card Act requires all executive branch agencies
to establish and maintain safeguards and internal controls for Government charge card programs.
Because Government charge card program oversight involves multiple agency functions,
successful implementation of the Charge Card Act requires collaboration between agencies and
Inspectors General. The Charge Card Act established additional reporting and audit
requirements for certain Offices of Inspectors General, including the Treasury Inspector General
for Tax Administration (TIGTA). The act requires each agency with more than $10 million6 in
purchase card spending in the prior fiscal year to submit semiannual reports of employee
purchase card violations and the disposition of those violations, including disciplinary actions



1
  48 C.F.R. §13.201 (b) (May 2011).
2
  $3,000 ($2,500 for services; $2,000 for construction).
3
  Treasury Inspector General for Tax Administration, Ref. No. 2013-10-056, The Purchase Card Program Lacks
Consistent Oversight to Identify and Address Inappropriate Use (June 2013).
4
  Pub. L. No. 112-194 (Oct. 2012). On September 6, 2013, the Office of Management and Budget (OMB) issued
Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of 2012
(Sept. 2013). On September 9, 2013, the General Services Administration issued Smart Bulletin No. 21, which
included a summary compliance checklist for agency use and sample reporting templates.
5
  OMB, OMB Circular No. A-123, Appendix B (Revised), Improving the Management of Government Charge Card
Programs (Jan. 2009), and OMB Memorandum M-12-12, Promoting Efficient Spending to Support Agency
Operations (May 2012).
6
  Between October 4, 2012, and October 3, 2013 (approximately Fiscal Year 2013), the IRS purchase card program
made purchases totaling approximately $31 million.
                                                                                                      Page 1
                       Review of the Internal Revenue Service’s Purchase Card
                     Violations Report and the Status of Government Charge Card
                                          Recommendations



taken.7 Because agencies should be aware of charge card audit findings and ensure that they
are promptly resolved, Inspectors General will report to the Director of the Office of
Management and Budget (OMB) 120 days after the end of each fiscal year on agency progress in
implementing purchase and travel card audit recommendations beginning with Fiscal Year
(FY) 2013.
To ensure compliance with the Charge Card Act, as of September 30, 2013, each agency head is
required to provide an annual certification that the appropriate policies and controls are in place
or that corrective action has been taken to mitigate risk of fraud or inappropriate travel and
purchase charge card practices. The annual certification should be included as part of the
existing annual assurance statement under the Federal Managers’ Financial Integrity Act
of 1982.8 In addition, each agency will continue to maintain and annually submit Charge Card
Management Plans no later than January 31 as required by OMB Circular A-123, Appendix B.
TIGTA examined the annual assurance statement provided by the IRS Office of the Chief
Financial Officer (CFO) as part of our review.
Additional requirements of the Charge Card Act include augmentation of existing internal
controls. At a minimum, all agency Charge Card Management Plans are required to be reviewed
and updated to reflect the following internal control activities:
        To prevent an individual from being reimbursed for a bill already paid by the
         Government by ensuring that agency officials who approve or settle official travel verify
         that charges paid directly by the Government to the bank are not also reimbursed to an
         employee or an employee’s individually billed account.
        To prevent the Government from spending money on unused tickets by verifying that
         the agency (travel management center or service or commercial travel office) submits
         requests to servicing common carriers for refunds of fully or partially unused tickets and
         tracks the status of these tickets to ensure resolution.
        To deter employee misuse of Government cards by implementing penalties for charge
         card violations that are jointly developed by agency charge card management and human
         resources components. These penalties will include salary offset, for instances of
         personal liability, and disciplinary actions for a cardholder or approving official’s illegal,
         improper, or erroneous purchases made with a purchase card, convenience check,
         integrated card, or travel card. Disciplinary actions should include dismissal, as
         appropriate. The plan will define and apply appropriate and consistent employee



7
  An administrative or internal control process inconsistency that does not result in fraud, loss to the Government, or
misappropriation of funds or assets (whether or not recouped) is not a reportable violation for the purposes of the
semiannual report.
8
  Pub. L. No. 97-255 (Sept. 1982), 31 U.S.C. 3512(d)(2) (Dec. 2013).
                                                                                                               Page 2
                      Review of the Internal Revenue Service’s Purchase Card
                    Violations Report and the Status of Government Charge Card
                                         Recommendations



        disciplinary procedures and comply with joint external reporting required of the Inspector
        General and agency management.
Between October 4, 2012, and October 3, 2013 (approximately FY 2013), the IRS purchase
card program included 3,796 purchase cardholders. These purchase cardholders made more than
79,000 purchases totaling approximately $31 million with their cards. In addition, 32 purchase
cardholders had access to convenience checks that were linked to their purchase card accounts.
IRS convenience check writers posted 1,723 checks totaling approximately $529,000 during this
period.
The Federal Acquisition Regulation9 establishes criteria for using purchase cards to make
payments. In addition, the OMB provides oversight of the purchase card program and has issued
guidance that establishes minimum requirements for Government purchase card programs and
suggested best practices.10 The IRS’s purchase card policy is set forth in the Purchase Card
Program Handbook and the Purchase Card Guide.11 The IRS Restricted Purchase List also
provides cardholders with detailed information on what is and is not an acceptable purchase.12
Within the IRS, the Office of Procurement is responsible for providing policy guidance for the
purchase card program as it relates to acquisition regulations and the Credit Card Services (CCS)
Branch13 is responsible for managing and providing oversight for the purchase card program.
The CCS Branch’s responsibilities include processing new account applications and performing
account maintenance, providing training, issuing program guidance, and performing periodic
program reviews. In addition, the CCS Branch is responsible for tracking and reporting to the
Labor and Employee Relations function (hereafter referred to as Labor Relations)14 instances of
alleged inappropriate purchase card use as part of the process for determining and implementing
the appropriate disciplinary action.
The IRS inputs employee misconduct allegations, including those involving purchase cards, into
the Automated Labor and Employee Relations Tracking System (ALERTS). The ALERTS uses
issue codes to categorize the employee misconduct allegations and disposition codes to record
IRS management actions taken in response to cases of misconduct, including the disciplinary
actions taken as a result of investigating the alleged misconduct or problem. TIGTA’s Office of


9
  48 C.F.R. § 13 (Mar. 2012).
10
   OMB, Circular No. A-123, Appendix B (Revised), Improving the Management of Government Charge Card
Programs (Jan. 2009).
11
   Internal Revenue Manual 1.32.6 (Jan. 21, 2010) and Document 9185, Internal Revenue Service Purchase Card
Guide (Jan. 2012).
12
   Policy and Procedures Memorandum No. 70.11, Internal Revenue Service Restricted Purchase List (June 2011).
13
   The CCS Branch is a part of the Employee Support Services function within the Agency-Wide Shared Services
function.
14
   The Labor and Employee Relations function is a function in the Human Capital Office within the Workforce
Relations Division. It is the IRS office responsible for advising and supporting managers on employee conduct and
performance matters.
                                                                                                          Page 3
                   Review of the Internal Revenue Service’s Purchase Card
                 Violations Report and the Status of Government Charge Card
                                      Recommendations



Investigation maintains the Performance and Results Information System (PARIS). The PARIS
is a management information system that provides TIGTA with the ability to manage and
account for the thousands of complaints received, investigations initiated, and leads developed
from law enforcement initiatives.
We held discussions with and analyzed information obtained from CCS Branch management
and staff located in Cincinnati, Ohio; Nashville, Tennessee; and Seattle, Washington; IRS
Counsel management located in Washington, D.C.; Human Capital Office Labor Relations
management and staff located in Laguna Niguel, California; Walnut Creek, California; and
Kansas City, Missouri; and the Office of the CFO located in Washington, D.C., during the period
September 2013 through January 2014. It is important to note that the IRS and TIGTA reviews
relate to the proper identification and reporting of known cases of purchase card misuse. Fraud
and abuse not identified by the IRS systems and management controls were beyond the scope of
this audit. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 4
                    Review of the Internal Revenue Service’s Purchase Card
                  Violations Report and the Status of Government Charge Card
                                       Recommendations




                                 Results of Review

Implementation of and Compliance With the Government Charge Card
Abuse Prevention Act of 2012 Requirements
TIGTA found that the IRS properly identified and reported four instances of purchase card
misuse. The IRS prepared its Purchase Card Violations Report (see Appendix IV) pursuant to
the requirements outlined in the Charge Card Act and in OMB Memorandum M-13-21,
Implementation of the Government Charge Card Abuse Prevention Act of 2012.
TIGTA’s independent review identified one confirmed violation of purchase card fraud during
the reporting period that resulted in the responsible cardholder’s resignation from employment
with the IRS. In addition, TIGTA identified two potential purchase card violations pending final
agency action and one potential purchase card violation pending investigation. This corresponds
with the information that the IRS conveyed in its Purchase Card Violations Report.
TIGTA also reviewed the IRS’s FY 2013 annual assurance statement under the Federal
Managers’ Financial Integrity Act of 1982 and determined that it had been updated by the IRS,
as required, to state that appropriate policies and controls were in place to mitigate the risk of
fraud and inappropriate Government charge card practices. The Department of the Treasury
Charge Card Management Plan is due to be updated in late January 2014 and was not available
during our review period. As a result, we will review the Charge Card Management Plan (to
ensure that it has been updated to include the new controls over travel cards required by the
Charge Card Act) in our next semiannual report due in July 2014.
TIGTA identified six TIGTA recommendations related to purchase or travel cards that remain
open and are scheduled to be implemented by the IRS in FY 2014. Once implemented, these
recommendations will further enhance the IRS internal controls for its charge card programs.
Finally, TIGTA identified an additional 14 related prior TIGTA recommendations that were
implemented and closed during FY 2013.

Semiannual report on IRS purchase card violations and actions taken by IRS
management in response to violations
TIGTA reviewed the IRS’s Purchase Card Violations Report, the methodology the IRS used to
identify purchase card violations, and related supporting documentation. TIGTA’s Office of
Audit also reviewed information from TIGTA’s Office of Investigations on completed purchase
card misuse investigation cases and complaints occurring during the review period.



                                                                                             Page 5
                       Review of the Internal Revenue Service’s Purchase Card
                     Violations Report and the Status of Government Charge Card
                                          Recommendations



Based on our independent review, four cases meeting OMB criteria appeared to be properly
included in the IRS’s Purchase Card Violations Report. Specifically, TIGTA’s independent
review identified one confirmed violation of purchase card fraud during the reporting period that
resulted in the responsible cardholder’s resignation from employment with the IRS. In addition,
TIGTA identified two potential purchase card violations pending final agency action and one
potential purchase card violation pending investigation. This corresponds with what the IRS
reported for the period of April 1 to September 30, 2013.

Review of annual assurance letter and Charge Card Management Plan
We reviewed the IRS’s FY 2013 annual assurance statement under the Federal Managers’
Financial Integrity Act of 1982 and determined that it had been updated by the IRS to state that
appropriate policies and controls were in place to mitigate the risk of fraud and inappropriate
Government travel and purchase charge card practices. The Department of the Treasury Charge
Card Management Plan is due to be updated in late January 2014 and was not available for
review during our audit period. As such, we will review the Charge Card Management Plan and
determine whether it has been updated to include the new travel card controls required by the
Charge Card Act in our next semiannual report due in July 2014. The IRS stated that it has
updated its policies and procedures pertaining to Government charge cards as a result of the act,
and TIGTA concluded that IRS’s Internal Revenue Manual, policies and procedures, and other
guidance generally contain the controls cited in the act. The IRS stated its current purchase card
training material and CCS Branch oversight reviews incorporate the compliance provisions
included in the Charge Card Act. We will monitor these controls as part of our next review due
in July 2014.

Status of the Internal Revenue Service’s Implementation of Treasury
Inspector General for Tax Administration Audit Recommendations
Related to Government Charge Cards
We identified a total of six TIGTA audit reports related to IRS purchase and travel cards issued
over the past five years (from FYs 2009 to 2013). These reports contain 35 recommendations
and 42 corrective actions proposed by the IRS in response to those recommendations. Of these
six prior TIGTA reports, three reports contained recommendations that the IRS reported were
closed during FY 2013 or remained opened at the end of FY 2013.15
We identified six TIGTA recommendations that are scheduled to be implemented by the end of
FY 2014. Once corrective actions are implemented, these recommendations will further enhance
the IRS’s internal controls for its charge card programs. Finally, we identified an additional

15
  The IRS indicated that it has closed an additional two recommendations during early FY 2014. Recommendations
closed after September 30, 2013, and before the issuance of this report are not captured in this report, but will be
included in our annual reporting on IRS’s implementation of audit recommendations due in January 2015.
                                                                                                            Page 6
                  Review of the Internal Revenue Service’s Purchase Card
                Violations Report and the Status of Government Charge Card
                                     Recommendations



14 recommendations that the IRS reported as being implemented during FY 2013. Additional
details related to recommendations closed during FY 2013 can be found in Appendix VI. The
recommendations that remained open as of September 30, 2013, can be found in Appendix V.




                                                                                     Page 7
                       Review of the Internal Revenue Service’s Purchase Card
                     Violations Report and the Status of Government Charge Card
                                          Recommendations



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the IRS’s implementation of and compliance with the
Government Charge Card Abuse Prevention Act of 2012 (Charge Card Act)1 requirements for
the period April 1 to September 30, 2013.2 To accomplish this objective, we:
I.      Determined how the IRS intends to implement legislative requirements of the
        Charge Card Act.
        A. Reviewed the Charge Card Act, related OMB implementing guidance M-13-21,3
           OMB Circular A-123 (Appendix B),4 OMB Circular A-50,5 and any current
           Department of the Treasury and IRS policies and procedures related to Government
           charge cards, specifically purchase cards.
        B. Interviewed key IRS personnel from the CCS Branch, the Office of the CFO, and the
           Human Capital Office’s Labor and Employee Relations function (hereafter referred to
           as Labor Relations)6 to determine:
             1. The approach used to prepare the IRS’s Purchase Card Violations Report and its
                reasonableness.
             2. How the IRS determined when purchase cards had been misused by IRS
                employees.
             3. What adverse personnel actions the IRS could take in response to purchase card
                misuse.


1
  Pub. L. No. 112-194 (Oct. 2012). On September 6, 2013, the Office of Management and Budget (OMB) issued
Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of 2012
(Sept. 2013). On September 9, 2013, the General Services Administration issued Smart Bulletin No. 21, which
included a summary compliance checklist for agency use and sample reporting templates.
2
  It is important to note that the IRS and TIGTA reviews relate to the proper identification and reporting of known
cases of purchase card misuse. Fraud and abuse not identified by the IRS systems and management controls were
beyond the scope of this audit.
3
  OMB, OMB Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of
2012 (Sept. 2013).
4
  OMB, OMB Circular No. A-123, Appendix B (Revised), Improving the Management of Government Charge Card
Programs (Jan. 2009).
5
  OMB, OMB Circular No. A-50, Audit Followup (Sept. 1982).
6
  The Labor and Employee Relations function is a function in the Human Capital Office within the Workforce
Relations Division. It is the IRS office responsible for advising and supporting managers on employee conduct and
performance matters.
                                                                                                           Page 8
                       Review of the Internal Revenue Service’s Purchase Card
                     Violations Report and the Status of Government Charge Card
                                          Recommendations



         C. Identified all TIGTA reports related to Government charge cards (including purchase
            cards, convenience checks, and travel cards [both individually billed and centrally
            billed accounts]) that had been issued within the past five fiscal years (FYs 2009 to
            2013).
II.      Reviewed confirmed purchase card (and convenience check) violations by IRS
         employees and identified the actions the IRS had taken as a result of these violations.7
         A. Determined the total number of confirmed violations involving misuse of a purchase
            card for the specified period. We determined whether these violations constituted:
            (1) abuse;8 (2) fraud;9 or (3) other loss, waste, or misuse.10
             1. In order to identify all confirmed violations, we reviewed IRS inappropriate use
                forms and logs maintained by the CCS Branch to document instances of potential
                purchase card misuse, all instances of potential credit card violations that were
                closed in the Labor Relations’ ALERTS database with a disposition of
                management action, and investigative cases and complaints in TIGTA’s PARIS
                database.
             2. We performed data reliability testing to verify the completeness and accuracy of
                the data for the ALERTS and PARIS databases. We determined that the data
                were sufficiently reliable for the purposes of this report.
             3. We identified nine closed cases related to purchase card misuse using the
                ALERTS. Of these nine cases, only one case was reportable as a confirmed fraud
                violation.11 The remaining eight cases were not reportable as violations because



7
  The review period is from April 1, 2013, through September 30, 2013.
8
  Abuse involves behavior that is deficient or improper when compared with behavior that a prudent person would
consider reasonable and necessary business practice given the facts and circumstances. Abuse also includes misuse
of authority or position for personal financial interests or those of an immediate or close family member or business
associate. Abuse does not necessarily involve fraud or noncompliance with provisions of laws, regulations,
contracts, or grant agreements.
9
  Fraud involves obtaining something of value through willful misrepresentation. Whether an act is, in fact, fraud is
a determination to be made through the judicial or other adjudicative system and is beyond our auditors’
professional responsibility.
10
   These three categories were identified in OMB Memorandum M-13-21.
11
   One purchase cardholder made 38 transactions totaling $2,655 for personal purchases and provided falsified (or
fraudulent) receipts to justify the purchases made. Information that the vendor provided to the credit card company
indicates that this cardholder purchased diet pills, romance novels, steaks, a smartphone, and baby items such as
bottles, games, and clothing with his or her purchase card; however, the cardholder claimed that the same
transactions were for reference books and office supplies. TIGTA identified this misuse in its prior purchase card
audit and referred it to the TIGTA Office of Investigations. The IRS employee was subsequently indicted and
prosecuted.
                                                                                                             Page 9
                      Review of the Internal Revenue Service’s Purchase Card
                    Violations Report and the Status of Government Charge Card
                                         Recommendations



                 they were administrative in nature.12 Based on our review of TIGTA’s PARIS
                 database, we identified one case and one complaint. We confirmed that the case
                 was the same confirmed fraud case. We reviewed the complaint and determined
                 that it was not reportable for the purposes of the Purchase Card Violations Report.
        B. Determined the number of adverse personnel actions, punishment, or other actions
           taken in response to each reportable violation involving misuse of a purchase card for
           the specified period. We further determined whether the actions involved:
           (1) demotions, (2) reprimands, (3) suspensions, (4) removals, or (5) any other adverse
           personnel actions.13
             1. To identify these actions, we reviewed all instances of potential credit card
                violations that were closed in the Labor Relations’ ALERTS database with a
                disposition of management action.
             2. We performed data reliability testing to verify the completeness and accuracy of
                the data for the ALERTS database. We determined that the data were sufficiently
                reliable for the purposes of this report.
             3. The one fraud case we identified resulted in the resignation of the employee.
        C. Determined the total number and status of all pending violations for the specified
           period. We determined if these pending violations are: (1) pending investigation,
           (2) pending hearing, (3) pending final agency action, or (4) pending a decision on
           appeal.14
             1. In order to identify all pending violations, we reviewed IRS inappropriate use
                forms and logs maintained by the CCS Branch to document instances of potential
                purchase card misuse, all instances of potential credit card violations that were
                still active in the Labor Relations’ ALERTS database, and investigative cases and
                complaints in TIGTA’s PARIS database.
             2. We performed data reliability testing to verify the completeness and accuracy of
                the data for the ALERTS and PARIS databases. We determined that the data
                were sufficiently reliable for the purposes of this report.
             3. From the CCS Branch logs, we identified one pending investigation instance of
                potential purchase card misuse that was referred by the CCS Branch directly to
                TIGTA’s Office of Investigations, bypassing Labor Relations. We identified
                17 open cases related to purchase card misuse using the ALERTS. Of these


12
   These cases included purchases made without the proper funding approval and purchases that were “split” to
avoid the micro-purchase limit.
13
   These five categories were identified in OMB Memorandum M-13-21.
14
   These four categories were identified in OMB Memorandum M-13-21.
                                                                                                         Page 10
                       Review of the Internal Revenue Service’s Purchase Card
                     Violations Report and the Status of Government Charge Card
                                          Recommendations



                  17 open cases, two were potential violations pending IRS management action.15
                  The remaining 15 cases were not reportable because they were administrative in
                  nature.16
III.     Determined the IRS’s reported progress in implementing prior TIGTA audit
         recommendations for improving internal controls related to Government charge cards.17
         A. Reviewed all TIGTA reports related to Government charge cards that had been issued
            within the past five fiscal years (FYs 2009 to 2013).
             1. Identified the status of implemented (closed) and open TIGTA audit
                recommendations for reports using the Joint Audit Management Enterprise
                System (JAMES). We performed data reliability testing to verify the
                completeness of the JAMES. We determined that the data were sufficiently
                reliable for the purposes of this report.
             2. For any recommendations that had not yet been reported as implemented by the
                IRS, we identified the corrective action planned by the IRS and the proposed
                completion date and any progress made to date.
IV.      Reviewed the IRS’s FY 2013 annual certification to ensure that it stated that the
         appropriate policies and controls were in place or that corrective actions had been taken
         to mitigate the risk of fraud and inappropriate Government travel and purchase charge
         card practices. This certification is the same as the annual assurance statement required
         by the Federal Managers’ Financial Integrity Act of 1982. We planned to review the
         Department of the Treasury Charge Card Management Plan, as a part of the annual
         assurance statement, to ensure that it included the new requirements for the IRS as stated
         in the Charge Card Act. However, the plan was due to be updated in late January 2014
         and was not available during our review period. As a result, we will review the Charge
         Card Management Plan (to ensure that it has been updated to include the new controls
         over travel cards required by the act) in our next semiannual report due in July 2014.
V.       Reviewed the IRS Internal Revenue Manual and other internal guidance to determine if it
         had been updated to reflect the changes noted in Step IV.


15
   One case involved the purchase of a prohibited item (coffee), and the other involved an item purchased in error for
which the IRS has not yet received a refund.
16
   These cases included purchases made without the proper funding approval, incidents that were incorrectly coded
as purchase card cases, and cases of self-reported accidental misuse.
17
   We made this determination by analyzing the status of our recommendations in the Joint Audit Management
Enterprise System (JAMES). The JAMES is the Department of the Treasury’s web-based audit tracking system. It
tracks issues, findings, and recommendations extracted from TIGTA and Government Accountability Office audit
reports. We did not perform any follow-up audits to confirm that our recommendations were successfully
implemented; rather, we relied on the information in the JAMES to provide our response. Follow-up audits on
purchase and travel cards will be considered as part of our annual risk assessment process.
                                                                                                            Page 11
                   Review of the Internal Revenue Service’s Purchase Card
                 Violations Report and the Status of Government Charge Card
                                      Recommendations



VI.    Determined if training would be offered for IRS staff relative to the new legislative
       requirements.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Government Charge Card Abuse
Prevention Act of 2012 and related OMB guidance; IRS internal policies and procedures and
other guidance pertaining to travel cards, purchase cards, and convenience checks; the CCS
Branch inappropriate use forms, logs, and supporting documentation; and ALERTS and PARIS
databases. To assess those controls, we reviewed the IRS’s methodology for reporting
confirmed and pending violations in the Purchase Card Violations report; and analyzed
inappropriate use forms, logs, and supporting documentation as well as cases of confirmed and
pending purchase card violations contained within ALERTS and PARIS databases. We also
reviewed IRS policies and procedures related to the Charge Card Act, including the IRS’s
FY 2013 annual assurance statement, and prior TIGTA audit reports and information in the
JAMES to identify closed recommendations during FY 2013 and any remaining open
recommendations related to Government charge cards.




                                                                                          Page 12
                  Review of the Internal Revenue Service’s Purchase Card
                Violations Report and the Status of Government Charge Card
                                     Recommendations



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Heather M. Hill, Audit Manager
Dana M. Karaffa, Lead Audit Evaluator
James S. Mills Jr., Senior Auditor
Gary D. Pressley, Senior Auditor
Lauren W. Bourg, Auditor




                                                                                   Page 13
                  Review of the Internal Revenue Service’s Purchase Card
                Violations Report and the Status of Government Charge Card
                                     Recommendations



                                                                  Appendix III

                         Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
IRS Human Capital Officer OS:HC
Director, Employee Support Services OS:A:ESS
Director, Workforce Relations Division OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Chief Counsel CC
    Chief, Agency-Wide Shared Services OS:A
    Chief Financial Officer OS:CFO
    IRS Human Capital Officer OS:HC




                                                                        Page 14
                      Review of the Internal Revenue Service’s Purchase Card
                    Violations Report and the Status of Government Charge Card
                                         Recommendations



                                                                                              Appendix IV

                      Purchase Card Violations Report

    PURCHASE CARD VIOLATION DATA
    I. Summary description of confirmed violations involving misuse                         April 1 to
    of a purchase card or integrated card.                                             September 30, 2013
    a. Abuse*1                                                                                 0
    b. Fraud*                                                                                     1
    c. Other loss, waste, or misuse                                                               0

    II. Summary description of all adverse personnel actions,
    punishment, or other actions taken in response to each reportable                       April 1 to
    violation involving misuse of a purchase or integrated card. **                    September 30, 2013
    a. Documentation of Counseling                                                                0
    b. Demotion                                                                                   0
    c. Reprimand                                                                                  0
    d. Suspension                                                                                 0
    e. Removal                                                                                    0
    f. Other (resignation)                                                                        1

                                                                                            April 1 to
    III. Status of all pending violations.                                             September 30, 2013
    a. Number of violations pending investigation2                                                1
    b. Number of violations pending hearing                                                       0
    c. Number of violations pending final agency action                                           2
    d. Number of violations pending decision on appeal                                            0
Source: IRS review of inappropriate use forms and logs and case information contained in the ALERTS database.



1
  * Terms used are defined in the Government Auditing Standards (Government Accountability Office,
GAO-12-331G, Government Auditing Standards (Dec. 2011) see: http://www.gao.gov/yellowbook ).
2
  Because the IRS does not always have access to all case and complaint information contained in the PARIS
database, discrepancies in reportable figures may occur for this particular category.
                                                                                                        Page 15
                    Review of the Internal Revenue Service’s Purchase Card
                  Violations Report and the Status of Government Charge Card
                                       Recommendations



                                                                                  Appendix V

       Open Purchase Card Recommendations as of
                  September 30, 2013

                             Open Recommendations                                       Date Due

Travel Card Controls Are Generally Effective, but More Aggressive Actions to Address Misuse
Are Needed (Ref. No. 2013-10-032), issued on April 18, 2013.
The Chief, Agency-Wide Shared Services (AWSS), should work with the CFO to
develop policies that clearly state when employees are authorized to make automatic
                                                                                    6/15/2014
teller machine withdrawals and that provide a specific period in advance of or
immediately following official travel dates when withdrawals are permitted.
The Chief, AWSS, should work with the CFO to develop policies that clearly state
                                                                                        6/15/2014
when employees are authorized to purchase fuel with their travel card.
The Chief, AWSS, should work with the CFO and IRS Human Capital Officer to
develop and implement a policy where cardholders with evidence of significant
personal financial problems associated with travel card misuse (including
                                                                                        9/30/2014
suspended accounts, issuance of insufficient funds checks, and charged-off
accounts) are referred to the IRS Human Capital Officer for a reevaluation of
background investigations, security clearances, and suitability for employment.
The Purchase Card Program Lacks Consistent Oversight to Identify and Address Inappropriate
Use (Ref. No. 2013-10-056), issued on June 20, 2013.
The Chief, AWSS, should improve split purchase oversight reviews conducted by
the CCS Branch by using data analysis techniques to identify all groups of
transactions that occur by a single cardholder, on the same day, with the same
vendor, and with a total purchase price that exceeds $3,000. In addition, require the   3/15/2014
CCS Branch to conduct an analysis to determine which purchases identified were
split to circumvent procurement policies and report all cardholders who split
purchases to Labor Relations for disciplinary review, tracking, and appropriate
disciplinary action.




                                                                                          Page 16
                     Review of the Internal Revenue Service’s Purchase Card
                   Violations Report and the Status of Government Charge Card
                                        Recommendations



                                Open Recommendations                                             Date Due

The Chief, AWSS, should require the CCS Branch to report all instances of potential
inappropriate use of purchase cards, identified through program oversight reviews or 3/15/2014
other means, to Labor Relations for disciplinary review and tracking in the
ALERTS. 
The Chief, AWSS, should develop and implement a plan to replace the use of
convenience checks for emergency salary payments, travel advances, Public                       4/15/2014
Transportation Subsidy Program payments, and other employee reimbursements
prior to the 2014 expiration of the waiver allowing the use of convenience checks.
Source: Our analysis of the JAMES.1




1
 The JAMES is used to track and report on TIGTA audit recommendations. We did not independently verify the
accuracy of the information contained within this system as part of this audit.
                                                                                                    Page 17
                    Review of the Internal Revenue Service’s Purchase Card
                  Violations Report and the Status of Government Charge Card
                                       Recommendations



                                                                                  Appendix VI

                      Fiscal Year 2013
           Closed Purchase Card Recommendations

                                   Closed Recommendations

Travel Card Controls Are Generally Effective, but More Aggressive Actions to Address Misuse
Are Needed (Ref. No. 2013-10-032), issued April 18, 2013.
The Chief, AWSS, should develop and implement detective travel card controls designed to
identify inappropriate or personal use travel card transactions that occur when cardholders are on
official travel.
The Chief, AWSS, should work with the CFO to revise current policies and procedures to include
steps to verify that daily automatic teller machine limits are maintained whenever credit limits are
adjusted.
The Chief, AWSS, should refer to Labor Relations any instances of travel card misuse identified
by this audit (e.g., insufficient funds checks written) that were not previously referred due to
control failures.
The Chief, AWSS, should review current detective control processes over holiday transaction
reviews to determine whether current data extraction methods identify all transactions during the
target time period and update the related procedures accordingly to reflect any control
enhancement needs identified.
The Chief, AWSS, should coordinate with the other Federal agencies and the General Services
Administration to collect charged-off account balances from separated employees.
The Purchase Card Program Lacks Consistent Oversight to Identify and Address
Inappropriate Use (Ref. No. 2013-10-056), issued June 20, 2013.
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement should reemphasize to all purchase cardholders, supervisors, funding officials,
and approving officials the importance of purchasing items only in compliance with applicable
authorities and necessary to complete their mission.




                                                                                           Page 18
                      Review of the Internal Revenue Service’s Purchase Card
                    Violations Report and the Status of Government Charge Card
                                         Recommendations



                                        Closed Recommendations

Chief Counsel should require management to evaluate all instances of potential inappropriate use
of purchase cards by Chief Counsel employees that are forwarded from Labor Relations and take
appropriate action.
The Chief, AWSS, should monitor and review purchase cardholder accounts, and refer for
investigation cases of individuals with multiple account closures due to lost, stolen, or
compromised cards. Also, monitor whether cardholders report lost or stolen cards to TIGTA’s
Office of Investigations, as required, and follow up with cardholders to ensure that they follow
the proper procedures.
The Chief, AWSS, should develop an oversight process to identify IRS employee personal use
and other inappropriate or abusive types of purchase card transactions.
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement should reemphasize to all purchase cardholders, supervisors, funding officials,
and approving officials that convenience checks are to be used only as a payment of last resort
and any requests to CCS Branch check writers for this payment vehicle will be denied if they do
not comply with program requirements.
The Chief, AWSS, should consider expanding and improving CCS Branch convenience check
oversight reviews and requiring the CCS Branch to refer all inappropriate use to Labor Relations
for disciplinary review, tracking, and appropriate disciplinary action.
The Chief, AWSS, should update the IRS Purchase Card Guide and current policy to include
examples to clearly explain scenarios that constitute a split purchase of desktop supplies.
The Chief, AWSS, should update current purchase card guidance to require the CCS Branch to
close purchase card accounts prior to the date of a cardholder’s separation from the IRS to ensure
that the number of pending transactions is minimized.
Although Citibank Travel Rebates Have Significantly Increased, They Were Not Properly
Allocated, Resulting in the Misappropriation of Funds (Ref. No. 2010-10-124), issued
September 24, 2010.
The Chief Financial Officer should establish and implement policies and procedures that are in
compliance with the Circular to ensure that travel card rebates are distributed to the appropriation
against which the expenditures were originally charged.
Source: Our analysis of the JAMES.1



 1
  The JAMES is used to track and report on TIGTA audit recommendations. We did not independently verify the
 accuracy of the information contained within this system as part of this audit.
                                                                                                     Page 19
